HHS/OIG, Audit -"Review of Medicaid Claims for Patients Between the Ages of 21 to 64 in New Jersey's Private and County-Operated Institutions for Mental Diseases,"(A-02-03-001017)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims for Patients Between the Ages of 21 to 64 in New Jersey's Private and County-Operated
Institutions for Mental Diseases," (A-02-03-01017)
February 24, 2004
Complete
Text of Report is available in PDF format (265 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine
if controls were in place to preclude New Jersey from claiming Federal financial participation (FFP) under the Medicaid
program for medical and ancillary services (except crossover claims to Medicaid for inpatient psychiatric services that
were included in a prior report) made on behalf of 21 to 64 year-old residents of private and county-operated psychiatric
hospitals that were institutions for mental diseases.  Our audit period was July 1, 1997 through June 30, 2001.  We
found that New Jersey improperly claimed FFP for 68 of 110 claims in our statistical sample.  The improper claiming
occurred because New Jersey did not have controls in place to prevent FFP from being claimed for medical and ancillary
services provided to 21 to 64 year-old residents of private and county-operated psychiatric hospitals.  As a result,
we estimate that New Jersey improperly claimed $170,770 of FFP.  Our report recommended that New Jersey refund $170,770
to the Federal Government, in addition to also had two procedural recommendations.  New Jersey officials concurred
with our recommendations.